HHS/OIG, Audit - "Review of Medicaid Credit Balances at Froedert Memorial
Lutheran Hospital, Milwaukee, Wisconsin," (A-05-03-00012)
Department
of Health and Human Services
"Review of Medicaid Credit Balances at Froedert Memorial Lutheran Hospital,
Milwaukee, Wisconsin," (A-05-03-00012)
February 24, 2003
Complete Text of Report is available in PDF format
(330 kb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of this audit was to determine whether Medicaid credit balances
recorded in Froedtert Memorial Lutheran Hospitals accounting records for inpatient
and outpatient services represented overpayments reportable to the Medicaid
program.  Our review disclosed that Medicaid overpayments of $20,601 were
not reported in a timely manner.  During our fieldwork, the Medicaid program
recovered $13,776 of the overpayments.  We recommended that Froedtert Memorial
Lutheran Hospital:  (1) ensure Medicaid overpayments of $20,601 are
recovered by the program; and (2) revise policies and procedures to ensure
that existing and future overpayments are identified and reported.  Froedtert
concurred with the results of our review and has already initiated corrective
actions with regards to the recommendations.  We agree with the corrective
actions.